Golden 1 Credit Union
8945 Cal Center Drive
Sacramento, CA 95826
1-877-GOLDEN 1 (1-877-465-3361)
Telecommunications Devices for the Deaf: 916-363-7407
golden1.com

Platinum Secured Credit Card Agreement, Pledge, and Assignment of Shares ("Pledge") and Security Agreement

SECURITY AGREEMENT:
Your Platinum Secured credit card account ("Account") and your Visa Platinum Secured credit card ("Card") are secured by
your share account called the Collateral Account that you established separately (“Collateral Account”). The Collateral Account
secures all obligations that you incur in connection with the Card. In this Agreement, "You" and "Your" mean any person who
accepts this Agreement or uses the Card. "We," "Us," "Our" and the "Credit Union" means Golden 1 Credit Union or its
successors.
The following terms and conditions apply:
Security Interest in Collateral Account. By establishing the Collateral Account and using your Card, you pledge, assign,
and grant a security interest in all shares, including dividends, in the Collateral Account whether now or hereafter deposited
or accumulated in said account to secure all indebtedness and obligations, including, but not limited to, any and all expenses
and reasonable attorney's fees that the Credit Union incurs in order to enforce this Pledge or to collect on the Card. If you
are not a Wisconsin resident or the Wisconsin Consumer Act does not apply to your Card, you also agree that this Pledge
also secures any and all expenses and reasonable attorney's fees that the Credit Union incurs in order to enforce this Pledge
or to collect on the Card. The Credit Union also has a lien on the Collateral Account under applicable law. The granting of this
security interest is a condition for the issuance of your Card.
You must maintain in the Collateral Account an amount equal to 100% of the credit limit of the Card ("Secured Amount").
You may not withdraw amounts from the Collateral Account for as long as there is a balance owing on your Card, or
until the Credit Union agrees to release all or part of the pledged amount, if such withdrawal would cause the
Collateral Account balance to fall below the Secured Amount.
Security Interest in Other Deposits. You also agree to provide additional security (either of shares or otherwise) if we so
request. In addition, your Card is secured by all other shares you have in any individual or joint account with the Credit
Union, except for shares in an Individual Retirement Account or in any other account that would lose special tax treatment
under state or federal law if given as security. These other shares may be withdrawn unless you are in default under this
Pledge or your Credit Card Agreement. Collateral securing other loans you have with the Credit Union may also secure this
loan, except that a dwelling and non-purchase-money household goods will never be considered as security for your Card,
notwithstanding anything to the contrary in any other agreement.
Default. Upon any default under this Agreement or if your Account is closed for any reason, you agree that, in addition to any
other rights we may have, we have the right to redeem, collect and withdraw any part or the full amount on deposit in the
Collateral Account without notice to you or demand for payment, and apply these funds toward any outstanding obligations on
your Account. Any excess funds remaining in the Collateral Account will be transferred to your primary savings account with us.
If the funds in your Collateral Account are insufficient to cover all your obligations on the Account, you will be responsible for the
repayment of any remaining balance.
Dividends. The Collateral Account is a dividend bearing account, and we will pay dividends on the funds held in the Collateral
Account. Dividends will be added to the Collateral Account and will secure repayment of your obligations on the Account.
Additional Agreements. In addition to this Pledge, you agree to abide by the terms of the Disclosure of Account Opening,
Share Account/Signature Card, Credit Application, Credit Card Agreement, and any other documents executed and/or agreed to
by you in connection with the Card and Collateral Account ("Additional Agreements"). Those Additional Agreements are hereby
incorporated as if fully set forth herein, and this Pledge is hereby incorporated into each of the Additional Agreements as if fully
set forth therein.
Governing Law. This Pledge shall be governed by the laws of the State of California.

9027, 9011 LASER FPDF FI1000452 Rev 5-2019

page 1 of 5

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

CREDIT CARD AGREEMENT
IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE
DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "ACCOUNT" MEANS YOUR CREDIT CARD ACCOUNT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS GOLDEN 1 CREDIT
UNION OR ITS SUCCESSORS. BY USING OR ACTIVATING YOUR CARD, YOU AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN.

THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION FOR
THE ISSUANCE OF CREDIT UNDER THIS AGREEMENT.
YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY
INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE
WITH US NOW AND IN THE FUTURE TO SECURE REPAYMENT OF
CREDIT EXTENDED UNDER THIS AGREEMENT. YOU ALSO AGREE
THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS UNDER STATE
AND/OR FEDERAL LAW. IF YOU ARE IN DEFAULT, WE CAN APPLY
YOUR SHARES TO THE AMOUNT YOU OWE.
Shares and deposits in an Individual Retirement Account or any other
account that would lose special tax treatment under state or federal law if
given are not subject to this security interest.
YOUR RESPONSIBILITIES
Promise To Pay. You promise to pay us in U.S. dollars for (a) all purchases,
cash advances, and balance transfers made by you or anyone whom you
authorize to use the Card; (b) all interest charges and all other charges or fees
as allowed by law; (c) collection costs and attorney's fees as permitted by
applicable law, and any costs incurred in the recovery of the Card as allowed by
applicable law; and (d) credit in excess of your credit limit that we may extend to
you. We may limit or close your Account, but the terms of this Agreement will
apply until you repay us in full.
Joint Accounts. Each of you will be responsible, jointly and severally, for the
repayment of amounts owed, regardless of who initiated any transaction under
the Account. If you close your joint Account, you will continue to be jointly and
severally obligated to repay the outstanding balance of the Account under the
terms of this Agreement.
Others Using Your Account. If you request, we may issue Cards to authorized
users that allow access your Account. Use of your Account by an authorized
user is subject to the terms of this Agreement. You understand that an
authorized user will have access to your Account and Account information. You
are responsible for any use of your Account by an authorized user or anyone
else that you permit to use your Account. You must notify us if you want an
authorized user to stop using your Account. If an authorized user is removed
from your Account, you will be mailed a new Card with a new number.
Notification of Address Change. You will notify us promptly if you change your
address for any reason. In order to prevent identity theft, your identity may need
to be verified before we act upon the notification.
USING YOUR ACCOUNT
Your Card. Please sign the Card immediately after you receive it. The Card is
valid during the dates provided on the front. We may replace your Card with
another card at any time. You agree to take reasonable steps to prevent the
unauthorized use of your Card and Account. Each Card issued on your Account
is our property, and you agree to return it to us or destroy it upon our request.
Use of your Card is subject to the terms of the Visa Core Rules and Visa
Product and Service Rules, as those rules may be revised from time to time.
Using Your Card. You can purchase or lease goods and services from any
merchant who honors your Card, and you may obtain cash advances from any
Golden 1 branch or other financial institution or Automated Teller Machine
("ATM") that accepts the Card, up to your allowable limit. You agree not to
present your Card or obtain a cash advance for any extension of credit in
excess of your available credit limit; however, if you do exceed your credit limit,
you agree to make immediate payment sufficient to bring the balance below the
credit limit. Certain purchases and cash advances require authorization prior to
completion of the transaction. In some cases, you may be asked to provide
identification. If our system is not working, we may not be able to authorize a
transaction, even though you have sufficient credit available. Also, for security
reasons, we may block the use of your Card in certain countries or geographic
areas. We will have no liability to you or others if any of these events occur.
Credit Limit. Your credit limit is disclosed to you when you open your Account
and on each monthly billing statement. Purchases will not be authorized if they
exceed your available credit limit. Your Account balance may exceed your credit
limit due to interest and/or fees that are imposed on your Account. You must pay
the excess amount immediately. You are responsible for the total balance at all
times, even if your balance exceeds your credit limit. We may change your
credit limit at any time. If we accept a payment from you in excess of your
outstanding balance, your available credit limit will not be increased by the
amount of the overpayment, nor will we be required to authorize transactions for
an amount in excess of your credit limit.
Personal Identification Number (PIN). We may issue a Personal Identification
Number (PIN) for use with your Card. This PIN is confidential and should not be
disclosed to anyone. You may use your PIN and your Card to access your
9027, 9011 LASER FPDF FI1000452 Rev 5-2019

Account, and all sums advanced will be added to your Account balance. In the
event a use of your PIN constitutes an Electronic Funds Transfer, the terms and
conditions of your Electronic Funds Transfer Agreement may affect your rights.
Consumer Purposes. You may use your Account only for personal, family, or
household purposes. You are not permitted to use your Account for business or
commercial purposes. If you use your Account for business purposes, this
Agreement still applies and you must pay us for the transactions incurred. In
addition, we may close your Account.
Impermissible Transactions. We prohibit the use of your Account for any
transaction that is unlawful under applicable laws. You must not use or try to use
your Card and/or Account for Internet gambling or any transactions that are
illegal or not permitted by us. Any such use will constitute an event of default
under this Agreement. Impermissible transactions include activities that abuse
our products and services, including, without limitation, excessive cashequivalent transactions or a pattern of payments in excess of your outstanding
balance, and any other activities deemed by us to be suspicious, fraudulent,
dishonest or deceptive. If you use your Account for such transactions, you agree
that we will have no liability or responsibility for those transactions. In such case,
this Agreement still applies and you must pay us for those transactions
according to the terms of this Agreement. You also agree that we will have no
liability or responsibility if we decline such transactions. You may also have to
reimburse the payment card network and us for any damages and/or expenses
resulting from that use. If we have reason to believe that your Card is used for
unlawful or fraudulent activities, Internet gambling, or transactions deemed by
us impermissible or likely to cause a loss to Golden 1, we may, at our option,
restrict or suspend access to your Account or any of its features, or close your
Account without prior notice.
Third Party or Mobile Devices. Smart phones, tablets, and other electronic
devices allow you to store or electronically present your Account information,
and engage in credit transactions without presenting your Card (such as through
a mobile wallet). Any purchases or transactions made through such third party
or mobile devices are covered by this Agreement and subject to its terms and
conditions. We do not control third party or mobile devices and cannot
guarantee the performance of any such device or any third party. You agree to
protect the security of the device the same as you would your Card.
Transaction Limits. Transaction limits, including, without limitation, on cash
advances at an ATM, may be imposed for security reasons by us or ATM
owners.
Notice Regarding ATM Fees by Others. When you use an ATM not owned by
us, you may be charged a fee by the ATM operator of any network used to
complete the transaction. You may be charged a fee for a balance inquiry even
if you do not complete a funds transfer. Any such fees must be displayed at the
ATM or point of sale terminal location.
PAYMENTS AND FEES
Billing Statements. You will receive a billing statement in the mail each month
there is a balance on your Account. You may receive your billing statements
electronically by enrolling in Visa Online Statements by signing on to your online
account at www.golden1.com. Your billing statement will provide instructions for
making payments, including the amounts due and the due date for receiving
your payment. If applicable, your billing statement will show your minimum
payment amount, which includes any past due amounts. Your payment due date
is typically the same day of the month every month. You may request a change
to your monthly due date.
Minimum Monthly Payments. To avoid a late payment fee, you must pay us at
least the minimum payment amount within 15 days after the date and time
provided in the billing statement. The monthly minimum payment will equal 2%
of the balance on the date the billing cycle closes or $10.00, whichever is
greater. If the balance is less than $10.00, your minimum payment will equal
that amount. You also agree to pay any amount which is past due or over your
credit limit. In addition to the minimum payment due, you may pay all or any part
of the entire outstanding balance on your Account at any time. You can pay
down balances faster by paying more than the minimum payment on your
Account.
Application of Payments. We will apply your payments first to finance charges,
then to late fees (if any), and then to the principal balance. All payments in
excess of the minimum monthly payment will be applied first to the balance with
the highest interest rate, and then to each successive balance with the next
highest interest rate, until the payment is exhausted.
Method of Payment. You may pay by check using the remittance coupon on
your billing statement, by automatic payment from your Golden 1 checking
account, by automatic payment from an account with another financial
institution, or online by signing in to your Online Banking account at
www.golden1.com. You may also pay in person at any Golden 1 branch.

page 2 of 5

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE
DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "ACCOUNT" MEANS YOUR CREDIT CARD ACCOUNT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS GOLDEN 1 CREDIT
UNION OR ITS SUCCESSORS. BY USING OR ACTIVATING YOUR CARD, YOU AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN.

Payments received in person by an employee at a Golden 1 branch no later
than close of business on any business day will be credited to your Account
effective on that day. Payments received after the close of business on any
business day will be credited on the next business day. We do not accept cash
payments through the mail. All payments are subject to verification and
collection by Golden 1. We may accept and process any payments marked
“paid in full” without losing our rights. All payments must be in U.S. Dollars.
As long as you make your payment in accordance with the instructions in your
billing statement by the date and time it is due, we will generally credit the
payment to your Account as of the day it is received. If you do not follow our
payment instructions, we may not accept your payment or there may be a delay
in crediting your Account.
Late or Partial Payments. Any payment that delays the reduction of your
balance will increase your total interest costs. Partial payments or prepayments
will not delay your next scheduled payment - you will still need to make the
minimum scheduled payment by the next scheduled due date to keep your
Account current. We may accept late payments, partial payments, checks or
money orders marked "payment in full" and such action shall not constitute final
settlement of your Account or a waiver or forgiveness of any amounts owing
under this Agreement.
Liability for Payments. If your Account is cancelled or closed, whether by you
or us, you remain obligated to pay the outstanding balance plus any interest
charges, fees and other charges imposed on your Account. Any time your
payment is returned for insufficient funds, we may place a temporary freeze on
all or part of the credit available to you under this Agreement until your payment
is actually collected by us.
FEES AND FOREIGN CURRENCY CONVERSION
Fees. In addition to the interest charges set forth herein, you agree to also pay
any and all fees that you incur as disclosed to you on your Credit Card Account
Opening Disclosure or similar disclosures (as may be amended from time to
time), or as disclosed to you during the term of your Account, and the following
fees:
Late Payment Fee: Up to $15
Expedited Card Fee: $18
Copy of Billing Statement of Transaction Receipt (sales slip): $10
Foreign Transactions; Currency Conversion. Purchases and cash advances
made in foreign currencies will be billed to you in U.S. dollars. The conversion
rate in dollars will be a rate selected by the card network from a range of rates
available in wholesale currency markets for the applicable central processing
date, which rate may vary from the rate the card network itself receives, or the
government- mandated rate in effect for the applicable central processing date
in each instance. Conversion may occur after the date of the transaction, and
the conversion rate in effect on the processing date may differ from the rate in
effect on the transaction date or posting date. All transactions processed outside
of the United States (which may include internet transactions) will be charged a
foreign transaction fee in the amount disclosed on your Credit Card Account
Opening Disclosure (as amended from time to time).
ANNUAL PERCENTAGE RATES AND INTEREST CHARGES
Annual Percentage Rate (“APR”). We use APR to calculate interest charges
on your Account. The APR is a variable rate and may increase or decrease
based on the U.S. Prime Rate as published in the Money Rates section of The
Wall Street Journal. In the event that the Index ceases to be published, changes
to the APR will be related to a comparable Index. The APR for purchases,
balance transfers, and cash advances, applicable to your Account is determined
by adding a Margin, as set forth in the Credit Card Account Opening Disclosure,
to the Index in effect as of the first day of each billing cycle.
Any increase or decrease to the APR may result in changes to the number of
payments required to repay the unpaid balance.
Interest Charges. You agree to pay interest at the rate(s) disclosed to you at
the time you open your Account and as may be changed from time to time in
accordance with applicable law. We calculate interest on your Account by
applying the periodic rate to the Average Daily Balance. To determine the
Average Daily Balance, we take the beginning balance each day, add any new
purchases, cash advances, balance transfers or other advances, fees and
unpaid interest charges, and subtract any payments, or credits. This gives us
the daily balance. Then, we add up all the daily balances for the billing cycle and
divide that by the number of days in the billing cycle. This gives us the Average
Daily Balance. At the end of each billing cycle, we determine your interest
charge by multiplying your Average Daily Balance by the monthly periodic rate
(your applicable APR divided by 12). In general, interest charges begin to
accrue from the date of transaction or the date the transaction posts to your
Account. Interest charges accrue on every unpaid amount until it is paid in full.
9027, 9011 LASER FPDF FI1000452 Rev 5-2019

Interest will be assessed on fees and penalties. Unless otherwise stated, we
will charge interest starting on the transaction date for all cash advances and
balance transfers. Transaction fees are also included in the calculation of
interest charges. If any interest charge is due and not paid, it will be added to
the principal and thereafter bear interest as the principal.
Grace Period on Purchases Only: You can avoid interest charges on
purchases by paying the entire statement balance for purchases each month by
the date on which the payment is due. Otherwise, the balance for purchases on
your Account, and subsequent advances from the date they are posted to the
Account, will be subject to an interest charge. You cannot avoid interest charges
on cash advances, balance transfers and transaction fees; even if you pay the
entire cash advance balance or balance transfer balance by the payment due
date, you will incur the interest charges accrued from the date the cash advance
or balance transfer is posted to your Account.
CANCELLED, LOST OR STOLEN CARDS
Termination; Change-in-Terms. We may, by written notice, terminate, cancel,
or revoke your Account, suspend your ability to make charges or cancel any
feature of your Account or your Card at any time, subject to applicable law, even
if you are not in default. You may terminate your Account by written notice.
Termination by either party shall not affect your obligation to repay any balance
on your Account resulting from use of the Card as well as interest charges and
fees incurred. We may change the terms of this Agreement, including the
method of calculating the periodic rate, at any time, by written notice, subject to
applicable law. Use or activation of the Card constitutes agreement and
acceptance of any change in terms, unless applicable law requires otherwise.
Our failure to exercise any of our rights or to take any action shall not constitute
a waiver of those rights, or an amendment or change in any of the terms of this
Agreement.
Effect of Cancellation. Cancellation or revocation of your Card will not affect
your obligation to pay any and all amounts due under this Agreement. If your
Account is closed or suspended for any reason, you must stop using your Card.
You must destroy all cancelled or expired Cards or return them to us upon
request. You must also cancel all billing arrangements to the Account. You will
be liable for any automated or recurring charges to your Account even if they are
charged after your Account is closed. You can limit your liability by destroying or
returning the Card(s) to us and cancelling any automated or recurring charges to
your Account.
Unauthorized Use. You agree to take reasonable steps to prevent the
unauthorized use of your Card and Account. "Unauthorized use" means the use
of the Card by someone other than you who does not have actual, implied or
apparent authority for such use, and from which you receive no benefit. For your
protection, we highly recommend that you continually monitor your monthly
billing statements to identify any unauthorized transactions. You will not be
responsible for charges made to your Account that are found by us to be
unauthorized if you notify us of such charges within 60 days after the transmittal
of the periodic billing statement where such charges appear. If your Card and/or
Account is used fraudulently, you agree to assist us in our investigation. Your
help includes giving us documents that we ask for and that are acceptable to us.
If Your Card is Lost or Stolen or if an Unauthorized Use Occurs. You agree
to notify us immediately if your Card is ever lost or stolen or if an unauthorized
use or fraud may have occurred. To report a lost or stolen card or suspected
unauthorized use, please call us at 1-877-GOLDEN 1 (1-877-465-3361). If you
are on vacation or out of the country, Visa offers an emergency credit card
replacement service. To contact Visa regarding emergency credit card
replacement, please call 1-800-VISA-911 (1-800-847-2911), 24 hours a day, 7
days a week. You also agree to assist us in determining the facts,
circumstances and other pertinent information relating to any loss, theft or
possible unauthorized use of your Card and comply with such procedures as we
may require in connection with our investigation.
DEFAULT; ACCELERATION; CREDIT SUSPENSION; COLLECTION COSTS.
Default: The following provision applies to borrowers in Idaho, Kansas,
and Maine: You will be in default if (1) you do not make a payment of the
required amount when due; or (2) we believe the prospect of payment,
performance, or realization on any property given as security is significantly
impaired.
The following provision applies to borrowers subject to the Wisconsin
Consumer Act: You shall be in default under this Agreement if any of the
following occur: (a) you fail to make a payment when due on 2 occasions within
any 12- month period; OR (b) you breach any term or condition of this
Agreement, which breach materially impairs your ability to pay amounts when
due or materially impairs the condition, value, or protection of our rights to or in
any collateral securing this transaction.

page 3 of 5

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE
DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "ACCOUNT" MEANS YOUR CREDIT CARD ACCOUNT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS GOLDEN 1 CREDIT
UNION OR ITS SUCCESSORS. BY USING OR ACTIVATING YOUR CARD, YOU AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN.

The following provision applies to all other borrowers: You will be in default if:
(1) you fail to make any payment on time; (2) you fail to keep any promises you
have made under this Agreement or under other Agreements you have with us; (3)
you die; (4) you file a petition in bankruptcy or have a bankruptcy petition filed
against you, or if you become involved in any insolvency, receivership or custodial
proceeding; (5) anyone attempts to take any of your funds held by us via legal
process or if you have a judgment or tax lien filed against you; (6) you make any
false, inaccurate, or misleading statements in any credit application or credit
update; (7) we, in good faith, believe that your ability to repay what you owe is or
soon will be impaired, or that you are unwilling to make your payments; (8) you
exceed your available credit limit; (9) you become subject to incompetency; (10)
your payment is returned for any reason; (11) your Golden 1 membership is
terminated or your membership privileges are suspended; or (12) there has been
a material adverse change in your creditworthiness.
Suspension of Electronic Services and Access to Share Accounts. Subject to
applicable law, we may suspend some or all electronic services and access to
your checking or other account(s) if you become delinquent on any of your credit
card or deposit obligations to us or you cause a loss to us. We shall not be liable to
you in any regard in connection with such suspension of services.
Actions Upon Default: If applicable law requires a notice of default and an
opportunity to cure that default, we will grant you those rights before we exercise
our remedies. If you default, upon the expiration of any applicable rights to cure
that default, we may declare all amounts immediately due and payable, and you
must immediately pay us the total unpaid balance (as well as interest charges to
date, if allowed by applicable law), any late charges, and all collection costs
permitted under law. The principal balance in default shall bear interest at the
contract rate, or another rate if required by applicable law. If immediate payment is
demanded, you agree to continue paying interest charges and fees until what you
owe has been paid, and any shares that were given as security for your Account
may be applied towards what you owe. Even if your unpaid balance is less than
your credit limit, you will have no credit available during any time that any aspect of
your Account is in default.
Costs of Collection: You shall pay all costs incurred by us in collecting any
amount you owe or in enforcing or protecting our rights. Costs of collection include,
but are not limited to, collection agency fees. The following applies to all borrowers
except Wisconsin borrowers: Costs of collection include reasonable attorney's fees
for any action taken by an attorney who is not a salaried employee of the credit
union in order to collect this loan or preserve or protect our rights and remedies,
including, without limitation, pre-suit demands for payment, pre-suit mediation or
settlement negotiations, investigation and assessment of our rights, participation in
bankruptcy cases, matters, and proceedings (including, without limitation, filing
proofs of claim, pursuing reaffirmation agreements, attending meetings of
creditors, and pursuing complaints, motions, and objections that relate in any way
to the Credit Union's collateral or right to payment), collateral disposition, nonbankruptcy suits and/or administrative actions, and appeals. For Alabama
borrowers: attorney's fees after default shall not exceed 15% of the unpaid debt, or
such higher amount as a court may allow. For Georgia borrowers: attorney's fees
shall not exceed 15% of principal and accrued interest, or such higher amount as
a court may allow. For Wisconsin borrowers: We may collect only those costs and
fees allowed by the Wisconsin Consumer Act, other applicable Wisconsin law, or
by a court of competent jurisdiction. For Kansas borrowers: Attorney fees shall not
be in excess of 15% of the unpaid debt after default. Costs of collection may
include collection agency fees or attorney fees, but not both.
MISCELLANEOUS
Communications. We may send Card(s), billing statements and other
communications to you at any mailing address or email address in our records. If
more than one person is responsible for the Account, we can provide billing
statements and communications to only one of you.
When you give us a telephone number (including a cellular or mobile device
number) or place a telephone call to us, you are providing your express consent
permitting us (and any party acting on our behalf) to contact you at that number
about the Account and all of your other Golden 1 accounts. Your consent allows us
to make live telephone calls, send text messages, leave prerecorded or artificial
voice messages, and use automatic telephone dialing technology for informational
and Account service purposes. For example, we may place such calls or texts to
provide certain notices, investigate or prevent fraud, or contact you about the
amounts you owe to us. This express consent applies to each telephone number
that you provide to us now or in the future. Message and data rates may apply.
You may change your communication preferences at any time by any reasonable
means, including calling us at 1–877–723-3010, sending an email to
membercare@golden1.com, or writing to us at Golden 1 Credit Union, Attn:
Member Care, P.O. Box 15966, Sacramento, CA 95852-0966.
Additional Benefits/Card Enhancements. We may from time to time offer
additional services to your Account at no additional cost to you. You understand
that we are not obligated to offer such services and may withdraw or change them
at any time.
Convenience Checks. We may, at our discretion, issue checks to you which may
be used for any purpose other than making a payment for credit to your Account or
9027, 9011 LASER FPDF FI1000452 Rev 5-2019

any other loan you have with us so long as that purpose is consistent with the
terms of this Agreement. By signing such check, you authorize us to pay the item
for the amount indicated and post such amount as a cash advance to your
Account. We do not have to pay any item which would cause the outstanding
balance in your Account to exceed your credit limit.
Credit Information. We may from time to time request personal information from
you or obtain credit reports from the credit reporting agencies for the purpose of
updating your credit status. We may reduce your credit limit or refuse to extend
new credit as a result of periodic review of your creditworthiness. Your failure to
provide such information when requested by us may result in suspension of credit
privileges under this Agreement, including your ability to obtain any future
advances by any means. You authorize us to investigate your credit standing when
opening or reviewing your Account. You authorize us to disclose information
regarding your Account to consumer reporting agencies and others. The
information we provide may appear on your consumer reports. If you think we
provided incorrect information, write to us and we will investigate in accordance
with the billing rights provision contained herein. If a credit balance amount of $1
or more remains in the account for more than six months, we will make a good
faith effort to refund the amount to you.
Enforcement. We do not lose our rights under this or any related agreement if we
delay enforcing them. If any provision of this or any related agreement is
determined to be unenforceable or invalid, all other provisions remain in full force
and effect.
Returns and Adjustments. Merchants and others who honor the Card may give
credit for returns or adjustments, and they will do so by submitting a credit slip
which will be posted to your Account. We do not control when a merchant sends
us your refund. We also need a reasonable amount of time after we receive a
merchant refund to process it. If your credits and payments exceed what you owe
us, the amount will be applied against future purchases and cash advances. If a
credit balance amount of $1 or more remains in the account for more than six
months, we will make a good faith effort to refund the amount to you.
Merchant Disputes. We are not responsible for the refusal of any merchant or
financial institution to honor your Card. Also, we are not responsible for disputes
regarding goods or services that you purchase with the Card unless: (a) your
purchase was made in response to an advertisement we sent or participated in
sending you; or (b) your purchase cost more than $50 and was made from a
merchant in your state or within 100 miles of your home; and only if you have
made a good faith attempt, but have been unable to obtain satisfaction from the
merchant. You must resolve all other disputes directly with the merchant. We do
not warrant any merchandise or services purchased by you with the Card.
Copy Received. You acknowledge that you have received a copy of this
Agreement.
Governing Law. This Agreement shall be construed under federal law and state
law in the state of California. All disputes shall be venued in Sacramento County,
California. Operating regulations of Visa may also apply. This Agreement is the
contract that applies to all transactions even though the sales, cash advance,
convenience check, credit or other slips you sign or receive may contain different
terms.
STATE NOTICES:
NOTICE FOR COSIGNERS IN ARIZONA:
Marital Community Property Joinder: If you are a married Arizona resident
signing documents in connection with this loan as a cosigner, your signature
confirms that this loan obligation is being incurred in the interest of your marriage
or family and that you will promptly notify your spouse and cause your spouse to
consent to your and your spouse's marital property being bound by your loan
obligations in accordance with Ariz. Rev. Stat. § 25-214 or other applicable law.
You agree that the lender may delay disbursing your loan until the lender has
received your spouse's consent in a form reasonably acceptable to the lender. You
further affirm that no provision of any marital property agreement or court decree
adversely affects your or lenders interest in this loan obligation.
NOTICE TO UTAH BORROWERS: This written agreement is a final expression
of the agreement between you and the Credit Union. This written agreement may
not be contradicted by evidence of any oral agreement.
NOTICES TO WISCONSIN BORROWERS: (1) If you are married and are
extended individual credit, Wis. Stat. 766.56(3)(b) requires us to notify your spouse
of the extension of credit. If we receive written notice of termination from your
spouse pursuant to Wis. Stat. Section 766.565(5), we may declare you in default
of the Agreement and call the entire extension of credit due and payable
notwithstanding Wis. Stat. Sections 425.103 and 425.105. If the Agreement is
called due and payable, you may have certain rights to cure the default. (2)
Additionally, no provision of a marital property agreement, a unilateral agreement
under Wis. Stat. 766.59, or a court decree under Wis. Stat. 766.70 adversely
affects our interests unless prior to the time the credit is extended, we are
furnished with a copy of the agreement or statement, or have actual knowledge of
the adverse provision when the obligation is incurred.

page 4 of 5

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

IMPORTANT DISCLOSURES FOR ACTIVE MEMBERS OF THE MILITARY AND THEIR DEPENDENTS:
The following applies if at the time this loan is made you are an active member of the military or a dependent (as those terms are defined in the Military
Lending Act (MLA), 10 U.S.C. 987 and its implementing regulations (“MLA”)), and (a) your loan is unsecured or secured by personal property or a vehicle
that you did not purchase with the proceeds of the loan; or (b) it is otherwise determined by law that the MLA applies to your loan. If this loan is a revolving
line of credit or credit card, the MLA ceases to apply at any time during which you are not a member of the military or a dependent (as defined in the MLA).
1. NOTICE: Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit.
In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36
percent. This rate must include, as applicable to the credit transaction or account: the costs associated with credit insurance premiums or debt protection
fees; fees for ancillary products sold in connection with the credit transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit card account). To receive
this notice verbally, please call 844-536-7431 24 hours a day, 7 days a week.
2. Any reference in this consumer credit contract to the following are hereby inapplicable to your loan: (a) Mandatory arbitration; (b) Any requirement(s) to
waive your rights to legal recourse under any applicable state or federal law; (c) Any demands or requirements construed as unreasonable notice from
you in order to exercise your legal rights; or (d) Prepayment penalties.
3. Any provisions in your consumer credit contract, loan, security, or account agreements that are determined to be inconsistent with or contradictory to
these disclosures or the MLA (as they may be changed or amended from time to time) are inapplicable with regard to this loan. However, all other terms
and conditions of the consumer credit contract shall remain in full force and effect.

YOUR BILLING RIGHTS - KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Golden 1 Credit Union
Attention: Card Investigations
P.O. Box 15966
Sacramento, CA 95852-0966
In your letter, give us the following information:
1. Your name and Account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if
you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you
do, we are not required to investigate any potential errors and you may have
to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible
for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.

9027, 9011 LASER FPDF FI1000452 Rev 5-2019

• If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then
report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we
cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50
of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with
your credit card, and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must have
been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your
credit card Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at:
Golden 1 Credit Union
Attention: Card Investigations
P.O. Box 15966
Sacramento, CA 95852-0966
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.

page 5 of 5

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

